Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  ADVERSE EVENT REPORTING
    FOR MEDICAL DEVICES




                    Daniel R. Levinson
                     Inspector General

                      October 2009
                     OEI-01-08-00110
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
I N T R O D                     U C T     I O N
Δ        E X E C U T I V E                             S U M M A R Y


                                 OBJECTIVES
                                 1. To determine the extent of adverse event reporting from 2003 to
                                    2007 by manufacturers and facilities that use medical devices.

                                 2. To determine the extent to which manufacturers and facilities that
                                    use medical devices comply with adverse event reporting
                                    requirements for medical devices.

                                 3. To assess how the Food and Drug Administration (FDA) uses
                                    medical device adverse event data to identify and address safety
                                    concerns.


                                 BACKGROUND
                                 Adverse event reporting enables FDA to take corrective action on
                                 problem devices and to prevent injury and death by alerting the public
                                 when potentially hazardous devices are discovered. Within FDA, the
                                 Center for Devices and Radiological Health (CDRH) is responsible for
                                 regulating medical devices.

                                 Regulations require device manufacturers to report to FDA (1) within
                                 30 calendar days of acquiring information that reasonably suggests one
                                 of their devices may have caused or contributed to a death, serious
                                 injury, or malfunction and (2) within 5 working days if an event
                                 requires action other than routine maintenance or service to prevent a
                                 public health issue. Regulations also require user facilities, such as
                                 hospitals and nursing homes, to report deaths to both the manufacturer,
                                 if known, and FDA within 10 working days. User facilities must report
                                 serious injuries to the manufacturers (or FDA if the manufacturer is
                                 unknown) within 10 working days. User facilities must also submit
                                 annual reports to FDA of all adverse event reports sent to
                                 manufacturers or FDA in the past year.

                                 We used six data sources for this study: the Manufacturer and User
                                 Facility Device Experience (MAUDE) database, the alternative
                                 summary reports database, annual user facility reports, CDRH files on
                                 regulatory actions, structured interviews with CDRH analysts, and
                                 interviews with CDRH senior officials.




 O E I - 0 1 - 0 8 - 0 0 11 0    ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                       i
E X E C U T I V E                           S U     M M A R Y



                                FINDINGS
                                Overall, FDA received twice as many adverse event reports for
                                medical devices in 2007 than in 2003; however, some types of
                                reports decreased. Manufacturers, user facilities, and other reporters
                                submitted 72,866 medical device adverse event reports in 2003, which
                                doubled to 150,210 reports in 2007. Manufacturers submitted the vast
                                majority of these reports. Thirty-day reports of death, serious injury,
                                and malfunction accounted for almost all manufacturer reports and
                                drove the overall increase in adverse event reports.

                                Five-day reports made up less than 1 percent of manufacturer reports.
                                Although the total number of manufacturer reports increased
                                substantially, 5-day reports fell from 432 to 54 reports per year over the
                                5-year period.
                                Manufacturers submitted most adverse event reports on time, but
                                many 5-day manufacturer and user facility reports were late. In
                                2007, manufacturers submitted 89 percent of all 30-day reports on time.
                                This percentage has remained relatively unchanged since 2003.
                                Although manufacturers submitted only 54 5-day reports in 2007,
                                31 percent of them were late. This was a decrease from a high of
                                64 percent in 2003 but an increase from 7 percent in 2005.

                                In 2007, user facilities submitted 39 percent of both death and injury
                                adverse event reports late to FDA. From 2003, the percentage late
                                ranged from 30 percent to 45 percent. Likewise, user facilities
                                submitted at least 42 percent of adverse event reports late to
                                manufacturers in each year from 2003 to 2007.
                                CDRH does not use adverse event reports in a systematic manner to
                                detect and address safety concerns about medical devices.
                                Analysts have documented little of their reviews, which can make it
                                difficult to trace the response to an individual event. Outcomes of
                                adverse events can result in a variety of postmarket surveillance
                                activities; however, at this time CDRH cannot link these activities to
                                particular adverse events. CDRH also lacks an established system to
                                document when adverse event reports result in onsite inspections.
                                CDRH’s Office of Compliance does not document which reports resulted
                                in inspections when analysts refer the reports. CDRH also does not
                                document onsite inspections in its adverse event database (MAUDE).

                                CDRH does not consistently read adverse event reports for the first time
                                in a timely manner. Analysts read fewer than one-third of adverse

 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                         ii
E X E C U T I V E                           S U     M M A R Y


                                event reports for the first time within 30 days and less than half within
                                60 days in every year from 2003 to 2007. CDRH’s procedures require
                                that high-priority adverse event reports be in MAUDE and ready for
                                analysts to review within 96 hours of receipt; however, we were unable
                                to verify CDRH’s compliance with these procedures through its
                                documents.

                                CDRH rarely acts when manufacturers and user facilities submit
                                reports late. Analysts told us they generally forward concerns about
                                timeliness only when they notice pervasive problems, and they usually
                                handle concerns informally by calling the manufacturers.
                                The inability to obtain complete and usable information in adverse
                                event reports hinders analysts’ review of reports. Analysts also pointed
                                to MAUDE as an impediment because they cannot easily conduct trend
                                analysis and MAUDE does not connect with other CDRH databases.

                                CDRH makes limited use of annual reports. We identified at least
                                526 user facilities that should have submitted annual reports for 2006,
                                but CDRH could provide only 220 annual reports for that year. We
                                could not determine whether facilities did not submit reports or whether
                                CDRH was unable to supply copies.


                                RECOMMENDATIONS
                                To improve how FDA uses adverse event reports to identify and address
                                safety concerns, FDA should:
                                Develop a protocol for reviewing adverse event reports that
                                specifically addresses the following needs:
                                Document followup on adverse events. CDRH should develop systems
                                that reference the actions it takes on particular adverse event reports.
                                In addition, CDRH should consider developing a tracking system to
                                follow the outcome of referrals sent to the Office of Compliance.

                                Ensure and document that CDRH is meeting its guidelines for reviewing all
                                5-day and Code Blue adverse event reports. CDRH established 5-day
                                and Code Blue reports (reports of pediatric deaths, multiple deaths,
                                exsanguinations, explosions, fires, burns, electrocutions, and
                                anaphylaxis) as the highest priority reports. Following its own
                                procedures, which require that contractors enter all high-priority
                                reports in MAUDE within 24 hours and analysts first read them within
                                96 hours, would ensure that CDRH knew whether manufacturers took
                                the appropriate steps.

 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                      iii
E X E C U T I V E                           S U     M M A R Y


                                Follow up with manufacturers that routinely submit reports late or with
                                incomplete information. CDRH should identify and target manufacturers
                                and user facilities with a history of noncompliance with adverse event
                                submission requirements.

                                Enhance outreach strategies to reduce underreporting by user facilities.
                                CDRH should consider implementing strategies such as the type of
                                additional training and outreach that the MedSun program has used to
                                work effectively with its participants to increase reporting.
                                Seek legislative authority to eliminate the requirement for user
                                facilities to submit annual reports. Eliminating this requirement
                                (21 U.S.C. § 360i(b)(c)) would decrease the regulatory burden on user
                                facilities, as well as CDRH. Other than a count of total adverse event
                                reports, all of the information in the annual reports is redundant to the
                                originally submitted reports.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                FDA agreed with both of our recommendations. In response to our first
                                recommendation, FDA said that CDRH will develop a clear review
                                protocol that addresses the needs our report identified. To achieve this,
                                FDA stated that its new FDA Adverse Event database will allow for
                                more extensive documentation of followup on adverse events and permit
                                FDA to more readily identify late and incomplete reports. FDA also
                                stated that CDRH has developed a tracking system that facilitates
                                referrals to the Office of Compliance and follows up on them. Finally,
                                FDA will identify steps it will take to stimulate user facility reporting.

                                Because FDA stated that a change in statutory authority would be
                                needed to eliminate the requirement to submit annual reports, we
                                revised our second recommendation accordingly.




 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                       iv
Δ   T A B L E                  O F           C O N T E N T S



    EXECUTIVE SUMMARY ..................................... i


    INTRODUCTION ........................................... 1



    FINDINGS ................................................. 9
              Overall, FDA received twice as many adverse event reports
              for medical devices in 2007 than in 2003; however, some
              types of reports decreased . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

              Manufacturers submitted most adverse event reports on
              time, but many 5-day manufacturer and user facility
              reports were late . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

              CDRH does not use adverse event reports in a systematic
              manner to detect and address safety concerns about
              medical devices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




    R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
              Agency Comments and Office of Inspector General
              Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



    A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
              A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

              B: Trends in Adverse Event Reports: 2003–2007 . . . . . . . . . . . . 23

              C: Adverse Event Reports Missing Critical Information . . . . . . . 24

              D: Timeliness of FDA Review of Adverse Event Reports . . . . . . 25

              E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


    A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Δ       I N T R O D U C T I O N


                               OBJECTIVES
                               1. To determine the extent of adverse event reporting from 2003 to
                                  2007 by manufacturers and facilities that use medical devices.

                               2. To determine the extent to which manufacturers and facilities that
                                  use medical devices comply with adverse event reporting
                                  requirements for medical devices.

                               3. To assess how the Food and Drug Administration (FDA) uses
                                  medical device adverse event data to identify and address safety
                                  concerns.


                               BACKGROUND
                               FDA is responsible for ensuring the safety and effectiveness of medical
                               devices in this country. These devices range from bandages and tongue
                               depressors to pacemakers and implantable infusion pumps. FDA’s
                               Center for Devices and Radiological Health (CDRH) has approved more
                               than 20,000 firms to produce nearly 100,000 medical devices. 1 2 Within
                               FDA, CDRH is responsible for regulating medical devices as well as
                               regulating unnecessary radiation exposure from medical, occupational,
                               and consumer products. 3
                               Adverse event reporting represents a critical component of FDA’s
                               information-gathering process after it has approved or cleared a medical
                               device for marketing. Adverse event reporting enables FDA to take
                               corrective action on problem devices and to prevent injury and death by
                               alerting the public when potentially hazardous devices are discovered.
                               Analyzing adverse event reporting also enables FDA to detect
                               unanticipated events and user errors, monitor and classify recalls,
                               update medical device labels, and develop educational outreach.
                               Adverse event reports supply FDA with the most comprehensive source



                                 1 FDA, CDRH. “Better Health Care With Quality Medical Devices: FDA on the Cutting
                               Edge of Device Technology,” February 2002. Available online at
                               http://download.journals.elsevierhealth.com/pdfs/journals/1075-
                               4210/PIIS107542100200007X.pdf. Last accessed on June 23, 2009.
                                 2 FDA, CDRH. “CDRH FY 2006 Annual Report,” 2006. Available online at
                               http://www.fda.gov/downloads/AboutFDA/CentersOffices/CDRH/CDRHReports/ucm129258.
                               pdf. Last accessed on June 23, 2009.
                                 3 FDA, CDRH. “About the Center for Devices and Radiological Health,” June 4, 2009.
                               Available online at http://www.fda.gov/AboutFDA/CentersOffices/CDRH/default.htm. Last
                               accessed on June 11, 2009.



O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                                       1
I N T R O D                     U C T      I O N


                                 of information about the safety and effectiveness of the device as it is
                                 used in everyday circumstances. Using adverse event report data, FDA
                                 can detect problems previously unknown to the manufacturer as well as
                                 problems with similar devices or device categories.
                                 Adverse Event Reporting for Medical Devices
                                 FDA, through its MedWatch program, collects information about
                                 injuries and adverse events that occur when using medical devices.
                                 MedWatch is FDA’s program for reporting serious reactions; product
                                 quality problems; therapeutic inequivalence or failure; and product use
                                 errors with human medical products, such as drugs and medical
                                 devices. 4 Mandatory adverse event reporting began in 1984 when FDA
                                 set forth regulations requiring manufacturers and importers to notify
                                 CDRH when they become aware of a death or serious injury that may be
                                 associated with one of their devices or a device malfunction that would
                                 likely cause or contribute to a death or serious injury if that malfunction
                                 were to recur. 5 The Safe Medical Devices Act of 1990 extended these
                                 reporting requirements to facilities that use medical devices
                                 (hereinafter referred to as user facilities), which include hospitals,
                                 ambulatory surgical facilities, nursing homes, and outpatient treatment
                                 facilities that are not physicians’ offices. 6 The final regulations
                                 governing these reporting requirements took effect in 1996. 7
                                 The Medical Device Amendments of 1992 mandated changes to the
                                 adverse event regulations for manufacturers and user facilities by
                                 requiring a single reporting standard and defining the types of injuries
                                 that must be reported. 8 9 The regulations mandate that manufacturers
                                 and user facilities provide information about the patient, adverse event,
                                 and suspect device. 10 Manufacturers must also provide the device

                                   4 FDA. “MedWatch—Reporting by Consumers,” June 8, 2009. Available online at
                                 https://www.accessdata.fda.gov/scripts/medwatch/medwatch-online.htm. Last accessed on
                                 June 11, 2009.
                                   5 49 Fed. Reg. 36326, 36348 (Sep. 14, 1984).
                                   6 Safe Medical Devices Act of 1990. P.L. No. 101-629 § 2, Federal Food, Drug, and
                                 Cosmetic Act, § 519(b), 42 U.S.C. § 360i(b).
                                   7 60 Fed. Reg. 63578 (Dec. 11, 1995); 61 Fed. Reg. 16043 (Apr. 11, 1996).
                                   8 Medical Device Amendments of 1992, P.L. No. 102-300 § 5, Federal Food, Drug, and
                                 Cosmetic Act, § 519(a), 42 U.S.C. § 360i(a).
                                    9 The regulations define serious injury as any illness or injury that is life threatening,
                                 results in permanent impairment of a body function or permanent damage to a body
                                 structure, or requires medical or surgical intervention to prevent such permanent effects.
                                 21 CFR § 803.3.
                                   10 21 CFR §§ 803.23, 803.52.




 O E I - 0 1 - 0 8 - 0 0 11 0    ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                                                 2
I N T R O D                     U C T      I O N


                                 specifications and details about any evaluation of the device. 11 User
                                 facilities must submit information about the specific event or problem,
                                 including how the device was involved and where the event or problem
                                 occurred. 12
                                 Federal regulations require manufacturers to report to FDA within
                                 30 calendar days of acquiring information that reasonably suggests one
                                 of their devices may have malfunctioned or caused or contributed to a
                                 death or serious injury. 13 Manufacturers must report within 5 working
                                 days if an event requires action other than routine maintenance or
                                 service to prevent a public health issue or if FDA has made a request for
                                 5-day reports. 14 If a manufacturer lacks the required information at the
                                 time of the report or obtains additional information after submitting the
                                 initial report, it must provide supplemental adverse event reports to
                                 FDA. 15
                                 Regulations also require user facilities to report device-related deaths to
                                 both the manufacturer, if known, and FDA within 10 working days. 16
                                 User facilities must also report device-related serious injuries to the
                                 manufacturers (or FDA if the manufacturer is unknown) within
                                 10 working days. 17 In addition, user facilities must submit annual
                                 reports to FDA that include either summaries or copies of all adverse
                                 event reports sent to manufacturers or FDA in the past year. 18 Table 1
                                 summarizes the reporting requirements for manufacturers and user
                                 facilities.




                                   11 21 CFR 803.52.
                                   12 21 CFR §§ 803.11, 803.32; MedWatch Form FDA 3500A. Available online at
                                 http://www.fda.gov/downloads/Safety/MedWatch/HowToReport/DownloadForms/ucm08272.
                                 pdf. Last accessed on March 12, 2009.
                                   13 21 CFR §§ 803.3 and 803.10(c)(1).
                                   14 21 CFR §§ 803.3 and 803.10(c)(2).
                                   15 21 CFR § 803.10(c)(3).
                                   16 21 CFR § 803.10(a)(1)(i).
                                   17 21 CFR § 803.10(a)(1)(ii).
                                   18 21 CFR §§ 803.10(a)(2) and 803.33.




 O E I - 0 1 - 0 8 - 0 0 11 0    ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                                3
I N T R O D                     U C T         I O N

                                 Table 1: Adverse Event Reporting Requirements

                                 Who Is Reporting        What To Report               To Whom To Report         When To Report


                                                         Events that require remedial
                                                         action to prevent an
                                                         unreasonable risk of                                   Within 5 working days
                                                         substantial harm to the public FDA                     of becoming aware of
                                 Medical Device          health and other types of                              the event
                                 Manufacturer            events designated in writing
                                                         by FDA

                                                                                                                Within 30 calendar
                                                         Deaths, serious injuries, and
                                                                                       FDA                      days of becoming
                                                         malfunctions
                                                                                                                aware of the event
                                                                                      Manufacturer (if known)   Within 10 working
                                                         Deaths
                                                                                      and FDA                   days of the event
                                                                                      Manufacturer (if known)   Within 10 working
                                                         Serious injuries
                                                                                      or FDA                    days of the event
                                 User Facility
                                                         Annual reports of all adverse                          Annually (by January
                                                         events the facility reported  FDA
                                                         during the past year                                   1st)

                                 Source: 21 CFR § 803.



                                 Consumers and health care professionals may voluntarily submit
                                 adverse event reports. 19 In fiscal year (FY) 2006, FDA received
                                 114,291 mandatory reports and 5,265 voluntary reports. 20
                                 Alternative Summary Reports
                                 On October 1, 1999, CDRH began accepting requests to participate in
                                 the alternative summary report (ASR) program, which allows
                                 manufacturers to submit abbreviated and aggregated adverse event
                                 reports. 21 Manufacturers must apply for permission from FDA to
                                 submit quarterly ASRs for individual medical devices. 22 For all other
                                 devices, manufacturers continue to submit full adverse event reports.
                                 Manufacturers must submit ASRs within 1 month following the

                                   19 FDA. “How to Report a Medical Device Problem.” Available online at
                                 http://www.fda.gov/MedicalDevices/Safety/ReportaProblem/FormsandInstructions/default.h
                                 tm. Last accessed on June 16, 2009.
                                   20 FDA, CDRH. “FY 2006 Annual Report,” September 2007. Available online at
                                 http://www.fda.gov/AboutFDA/CentersOffices/CDRH/CDRHReports/ucm129324.htm. Last
                                 accessed on June 16, 2009.
                                   21 FDA, CDRH. “Medical Device Reporting—Alternative Summary Reporting Program,”
                                 October 2000. Available online at
                                 http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/GuidanceDocuments/uc
                                 m072029.htm. Last accessed on June 16, 2009.
                                   22 Ibid.




 O E I - 0 1 - 0 8 - 0 0 11 0    ADVERSE EVENT REPORTING    FOR   MEDICAL DEVICES
                                                                                                                                4
I N T R O D                      U C T    I O N



                                   reporting quarter. FDA stores ASRs in a different database than other
                                   manufacturer reports.

                                   Rather than individually reviewing ASRs, CDRH conducts trend
                                   analyses on them, such as calculating occurrence rate changes for
                                   specific events. CDRH may request a manufacturer to submit a full
                                   report if it needs additional information about a specific event. In
                                   FY 2006, CDRH received information about 104,641 adverse events
                                   submitted through ASRs. 23
                                   MedSun Program
                                   In 2002, CDRH launched the Medical Product Safety Network
                                   (MedSun) pilot project to increase user facility reporting rates and
                                   improve the quality of reports. About 350 user facilities, primarily
                                   hospitals, participate voluntarily. This represents a small fraction of
                                   the thousands of hospitals, nursing homes, ambulatory surgical centers,
                                   and outpatient treatment facilities that use devices. MedSun
                                   participants submit additional information that could help improve the
                                   safe and effective use of medical devices. 24
                                   MedSun analysts work closely with participating user facilities to assist
                                   them in determining the appropriate response to adverse events. User
                                   facilities receive additional training on reporting events and feedback
                                   regarding the reports that they submitted. In addition to mandating
                                   reporting of deaths and serious injuries, CDRH encourages MedSun
                                   participants to report close calls and user errors voluntarily.
                                   Manufacturer and User Facility Device Experience Database
                                   Since 1996, the Manufacturer and User Facility Device Experience
                                   (MAUDE) database has housed all voluntary and mandatory adverse
                                   event reports, including reports submitted through MedSun. CDRH
                                   analysts use MAUDE to review the adverse event reports and examine
                                   specific devices’ adverse event histories as well as those of similar
                                   devices. FDA is in the process of replacing MAUDE with the FDA
                                   Adverse Event Reporting System, which will house adverse event




                                     23 FDA, CDRH. “FY 2006 Annual Report,” September 2007. Available online at

                                   http://www.fda.gov/AboutFDA/CentersOffices/CDRH/CDRHReports/ucm129324.htm. Last
                                   accessed on March 12, 2009.
                                     24 FDA, CDRH. “MedSun: About MedSun,” May 21, 2009. Available online at
                                   https://www.accessdata.fda.gov/scripts/medwatch/medwatch-online.htm. Last accessed on
                                   March 12, 2009.



  O E I - 0 1 - 0 8 - 0 0 11 0     ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                                           5
I N T R O D                     U C T      I O N


                                 information from all five FDA centers. 25 CDRH will implement the new
                                 system at the end of 2010. 26
                                 CDRH Review of Adverse Events
                                 Each night, MAUDE forwards new reports to CDRH analysts based on
                                 their specialties, which range from nursing to engineering. CDRH
                                 prioritizes the review of adverse event reports moving from the most to
                                 the least serious:

                                     •    5-day reports (those required to be reported within 5 days of an
                                          adverse event);

                                     •    Code Blue reports (reports of pediatric deaths, multiple deaths,
                                          exsanguinations, explosions, fires, burns, electrocutions, and
                                          anaphylaxis);

                                     •    individual death and serious injury reports (those required to be
                                          reported within 30 days of an adverse event); and

                                     •    malfunction reports (MAUDE randomly chooses 1 of every
                                          10 malfunction reports for review).

                                 Analysts review the device’s label, research its history, and analyze
                                 trends to ensure that the device’s warning reflects the adverse event
                                 and occurs at no greater than the expected rate. If analysts need more
                                 information, they may request additional details from the
                                 manufacturer. 27 If a type of event mentioned in the warning occurred
                                 and the manufacturer took the appropriate response, analysts stop
                                 researching the adverse event and save the report in the database for
                                 trending and further use.

                                 When appropriate, analysts may recommend specific actions based on
                                 their reviews. These actions include warning physicians and the public
                                 about potential health concerns, requiring manufacturers to conduct
                                 postmarket studies, increasing education and outreach to
                                 manufacturers and user facilities, and consulting with other CDRH
                                 offices to arrange field investigations. Analysts also may exchange


                                   25 The five FDA centers are CDRH, the Center for Drug Evaluation and Research, the
                                 Center for Biologics Evaluation and Research, the Center for Food Safety and Applied
                                 Nutrition, and the Center for Veterinary Medicine.
                                    26 FDA, CDRH. “MedWatch Plus/FAERS.” Available online at
                                 http://www.fda.gov/ScienceResearch/SpecialTopics/CriticalPathInitiative/SpotlightonCPIPro
                                 jects/ucm083295.htm. Last accessed on March 12, 2009.
                                   27 21 CFR § 803.15.




 O E I - 0 1 - 0 8 - 0 0 11 0    ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                                        6
I N T R O D                     U C T       I O N


                                 information with premarket reviewers about problems noticed during a
                                 device’s approval, which might assist them in determining whether
                                 further action is necessary. In the most serious situations, CDRH may
                                 request for-cause inspections of the manufacturers. 28
                                 CDRH, through the Office of Compliance, sends all requests for
                                 manufacturer inspections to FDA’s Office of Regulatory Affairs, which
                                 conducts inspections and recommends classifications. 29 However,
                                 CDRH makes the final decisions regarding classification after reviewing
                                 the inspection reports. FDA has several means to protect the public
                                 from unsafe and ineffective devices, including: 30
                                      •    recalling a medical device from the marketplace, 31

                                      •    withdrawing and temporarily suspending an approved
                                           application, 32
                                      •    requiring a manufacturer to conduct postmarket surveillance, 33

                                      •    levying a civil monetary penalty not to exceed $150,000 per
                                           event and $1 million per proceeding, 34
                                      •    issuing a warning of FDA’s intent to seek criminal prosecution, 35

                                      •    filing a proceeding to seize a specified device, 36

                                      •    seeking an injunction, 37 or

                                      •    referring the matter to the appropriate United States Attorney
                                           for prosecution. 38




                                   28 A for-cause inspection is based on a previous problem or complaint.
                                   29 Inspections can result in one of three classifications: no action indicated, voluntary
                                 action indicated, or official action indicated.
                                   30 FDA. “Regulatory Procedures Manual,” March 2008. Available online at
                                 http://www.fda.gov/ora/compliance_ref/rpm/. Last accessed on March 12, 2009.
                                   31 21 U.S.C. § 360h(e).
                                   32 21 U.S.C. § 360e(e).
                                   33 21 U.S.C. § 360l(a).
                                   34 21 U.S.C. § 333(f)(1).
                                   35 21 U.S.C. § 335.
                                   36 21 U.S.C. § 334(a).
                                   37 21 U.S.C. § 332(a).
                                   38 21 U.S.C. § 333(a).




 O E I - 0 1 - 0 8 - 0 0 11 0    ADVERSE EVENT REPORTING     FOR   MEDICAL DEVICES
                                                                                                                               7
I N T R O D               U C T      I O N




                                     METHODOLOGY
                                     Scope
                                     This study focused on the universe of reported medical device adverse
                                     events contained in the MAUDE and ASR databases from 2003 to 2007.
                                     Data Collection and Analysis
                                     We used six data sources for this evaluation:

                                     (1) MAUDE: the FDA database containing manufacturer, user facility,
                                     distributor, and voluntary reports;

                                     (2) ASR database: the FDA database containing reports that
                                     manufacturers submitted quarterly to FDA;

                                     (3) annual user facility reports;

                                     (4) CDRH files on compliance and enforcement actions from the Office
                                     of Compliance about manufacturer inspections and information about
                                     regulatory actions taken;

                                     (5) structured interviews with all 16 CDRH analysts who review
                                     individual adverse event reports; and

                                     (6) interviews with CDRH senior officials.

                                     Appendix A contains a full description of the methods.
                                     Limitations
                                     We did not verify information in the adverse event reports from the user
                                     facilities or manufacturers. We also did not calculate the magnitude of
                                     underreporting from either user facilities or manufacturers. Finally,
                                     this report does not make determinations about the appropriateness of
                                     the analysts’ decisions or the actions that CDRH took pertaining to any
                                     adverse event report.
                                     Standards
                                     This study was conducted in accordance with the “Quality Standards for
                                     Inspections” approved by the Council of the Inspectors General on
                                     Integrity and Efficiency.




      O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                         8
 Δ           F I N D I N G S



   Overall, FDA received twice as many adverse                            Manufacturers, user facilities,
event reports for medical devices in 2007 than in                         distributors, and other voluntary
2003; however, some types of reports decreased                            reporters, such as consumers and
                                                                          physicians, submitted
                                    72,866 medical device adverse event reports in 2003. By 2007, that
                                    number more than doubled to 150,210 reports. Medical device
                                    manufacturers submitted the vast majority of these reports. Between
                                    2003 and 2007, manufacturer reports increased from 90 to 94 percent of
                                    all reports. Reports from user facilities and those from distributors and
                                    voluntary reporters made up the few remaining reports. (See Appendix
                                    B for details.)
                                    The increase in 30-day manufacturer reports drove the overall increase
                                    Thirty-day reports of death, serious injury, and malfunction accounted
                                    for almost 100 percent of manufacturer reports and drove the overall
                                    increase in adverse event reports. The remaining manufacturer reports
                                    were mostly 5-day reports, but also included FDA special requests and
                                    reports without a classification. (See Table 2 for details.)

                                    Five-day reports, resulting from an adverse event that necessitates
                                    remedial action to prevent a public health risk, made up less than
                                    1 percent of manufacturer reports. Although the total number of
                                    manufacturer reports substantially increased, 5-day reports decreased
                                    from 432 to 54 reports per year over the 5-year period. It is unclear why
                                    the number of reports decreased; however, the decrease might be
                                    explained by reporters misclassifying the reports, an actual decrease in
                                    5-day reports, or a combination of the two.
                                    Table 2: Manufacturer Adverse Event Reports 2003–2007


                                     Type of Manufacturer Reports                                 2003         2004         2005         2006         2007


                                     Thirty-day manufacturer reports                           64,784       70,505        89,983     109,527        140,698
                                       Percentage of total manufacturer reports                  100%         100%         100%         100%         100%

                                     Five-day manufacturer reports                                 432          203          160          134           54
                                       Percentage of total manufacturer reports                    1%           0%           0%            0%           0%

                                     Other manufacturer reports*                                     1           10           14           15          313
                                       Percentage of total manufacturer reports                    0%           0%           0%            0%           0%

                                        Total manufacturer reports                             65,217       70,718        90,157     109,676        141,065
                                    Source: Office of Inspector General (OIG) analysis of MAUDE adverse event data, 2009.
                                    Percentages do not add to 100 because of rounding.
                                    * Other manufacturer reports include FDA-requested reports and reports that are missing a classification.

     O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING        FOR   MEDICAL DEVICES
                                                                                                                                                9
F    I N D I N G                    S


                                   In addition to submitting individual adverse event reports,
                                   manufacturers submitted 233 quarterly ASRs in 2007, a slight increase
                                   from the 209 ASRs they submitted in 2003. Each ASR may include
                                   thousands of adverse events that occurred in the preceding quarter. In
                                   2003, ASRs contained 91,192 adverse events. This number increased
                                   steadily until 2006, when it increased more than fourfold to
                                   443,066 events, and then stayed relatively flat with 449,978 events in
                                   2007. The vast majority of that fourfold increase can be attributed to
                                   one particular manufacturer’s device. That manufacturer started
                                   reporting adverse events involving this device using ASRs in 2006. This
                                   device accounted for 312,625 events in 2006 and 309,918 in 2007.
                                   MedSun user facilities submitted more reports than all other user facilities
                                   Through their submission of both mandatory and voluntary reports, the
                                   MedSun facilities accounted for 78 percent of all user facility adverse
                                   event reports in 2007. User facilities include hospitals, ambulatory
                                   surgical facilities, nursing homes, and outpatient treatment facilities
                                   that are not physicians’ offices. In fact, the large increase in MedSun
                                   reports caused the total number of user facility reports to increase
                                   12 percent over the 5 years. (See Table 3.)
                                   Table 3: Non-MedSun and MedSun User Facility Reports


                                        Type of Report                     2003          2004      2005    2006    2007
                                   Total non-MedSun reports               2,029         1,592      1,273    879     697
                                        Mandatory reports                 1,275         1,035        79     596     532
                                        Voluntary reports                   754              557    494     283     165

                                   Total MedSun reports                     861         1,664      2,479   2,169   2,537
                                        Mandatory reports                   100              308    330     210     251
                                        Voluntary reports                   761         1,356      2,149   1,959   2,286
                                        Total user facility
                                                                          2,890         3,256      3,752   3,048   3,234
                                        reports

                                   Source: OIG analysis of MAUDE adverse event data, 2009.



                                   The decrease in and low numbers of reports from non-MedSun facilities
                                   highlight a potential reporting problem. Of the roughly 350 MedSun
                                   facilities, 252 submitted at least one adverse event report in 2007, up
                                   from 104 facilities in 2003. (See Table 4.) Conversely, only
                                   267 non-MedSun user facilities out of the thousands of potential user
                                   facilities submitted reports in 2007, down from 719 in 2003. Certainly
                                   some of the discrepancy results from the special attention and training
                                   MedSun facilities receive, but the low rate of reporting from other


    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING    FOR   MEDICAL DEVICES
                                                                                                                   10
F    I N D I N G                    S


                                   facilities raises concerns about potential underreporting of adverse
                                   events.
                                   Table 4: User Facilities That Reported Adverse Events

                                   Number of User Facilities
                                                                            2003         2004      2005   2006   2007
                                   Reporting

                                   Total non-MedSun facilities               719             519   458    306     267

                                   Total MedSun facilities                   104             192   246    220     252

                                        Total user facilities
                                                                             823             711   704    526     519
                                        reporting

                                   Source: OIG analysis of MAUDE adverse event data, 2009.

                                   Despite the sharp drop in non-MedSun user facility reporting, CDRH
                                   has offered little outreach to these user facilities. CDRH staff are
                                   available during business hours to answer user facilities’ reporting
                                   questions, and the agency posts guidance documents online. However,
                                   outreach has been limited to a few conferences in the last 5 years.



 Manufacturers submitted most adverse event
                                                                       In 2007, manufacturers submitted
reports on time, but many 5-day manufacturer                           89 percent of all 30-day reports on
             and user facility reports were late                       time. This percentage has
                                   remained relatively unchanged since 2003, when manufacturers
                                   submitted 88 percent on time.
                                   Most 30-day reports were on time, but an increasing number of 5-day
                                   reports and ASRs were late

                                   Although manufacturers submitted only 54 5-day reports in 2007,
                                   31 percent of them were late. This was down from a high of 64 percent in
                                   2003 but up from 7 percent in 2005. (See Table 5.) Manufacturers also
                                   submitted an increasing percentage of ASRs late. In 2003, 6 percent of
                                   ASRs were late, but by 2007, 53 percent were late.




    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING      FOR   MEDICAL DEVICES
                                                                                                                 11
F    I N D I N G                    S




                                   Table 5: Timeliness of Manufacturer Reports 2003–2007


                                                                                        2003         2004          2005         2006          2007

                                    Thirty-day manufacturer reports                   64,784       70,505       89,983      109,527       140,698
                                        Percentage of reports on time                   88%           89%          92%          91%           89%
                                        Percentage of reports late                       8%            7%           5%           7%            8%
                                        Percentage of unable to determine                4%            4%           3%            3%           3%

                                    Emergency 5-day manufacturer reports                 432           203          160          134           54

                                        Percentage of reports on time                   28%           77%          88%          84%           65%
                                        Percentage of reports late                      64%           21%           7%          14%           31%
                                        Percentage of unable to determine                8%            2%           5%            2%           4%
                                    Other manufacturer reports *                            1           10             14          15         313
                                        Total manufacturer reports                    65,217       70,718       90,157      109,676       141,065

                                   Source: OIG analysis of MAUDE adverse event data, 2009.
                                   Percentages do not add to 100 because of rounding.

                                   * Other manufacturer reports include FDA-requested reports and reports that are missing classifications.


                                   User facilities submitted at least 30 percent of adverse event reports late
                                   In 2007, user facilities submitted 39 percent of both death and injury
                                   adverse event reports late to FDA. The percentage late ranged from
                                   30 percent in 2005 to 45 percent in 2006. (See Table 6.)
                                   Table 6: Late User Facility Reports to FDA 2003–2007

                                    Report Types to FDA                         2003            2004           2005            2006           2007

                                    Total death reports in MAUDE
                                                                                  151            142              99              69               66
                                    to FDA
                                       Number late                                 74             55              37             26             32
                                       Percentage late                           49%            39%             37%            38%            48%
                                    Total injury reports in MAUDE
                                                                                  627            516             402            305            301
                                    to FDA
                                       Number late                                239            206             115            141            110
                                       Percentage late                           38%            40%             29%            46%            37%
                                    Total death and injury reports
                                                                                  778            658             501            374            367
                                    in MAUDE to FDA
                                       Number late                                313            261             152            167            142
                                        Percentage late                          40%            40%             30%            45%            39%

                                   Source: OIG analysis of MAUDE adverse event data, 2009.


                                   Likewise, user facilities submitted at least 42 percent of adverse event
                                   reports late to manufacturers in each year from 2003 to 2007. Although
                                   the number of adverse event reports submitted to manufacturers



    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING       FOR   MEDICAL DEVICES
                                                                                                                                              12
F    I N D I N G                    S


                                   declined from 2003 to 2007, the percentage late stayed relatively flat.
                                   (See Table 7.)
                                   Table 7: Late User Facility Reports to Manufacturers
                                   2003–2007

                                   Report Types to Manufacturers                  2003       2004   2005   2006   2007

                                   Total death reports in MAUDE to
                                                                                   151       119      95     67    55
                                   manufacturers
                                     Number late                                    74         51     39     24     29
                                     Percentage late                              49%        43%    41%    36%    53%
                                   Total injury reports in MAUDE to
                                                                                   813       675     475    346    335
                                   manufacturers
                                     Number late                                   345        305    201    170    141
                                     Percentage late                              42%        45%    42%    49%    42%
                                   Total death and injury reports in
                                                                                   964       794     570    413    390
                                   MAUDE to manufacturers
                                     Number late                                   419       356     240    194    170
                                        Percentage late                           43%        45%    42%    47%    44%
                                   Source: OIG analysis of MAUDE adverse event data, 2009.




  CDRH does not use adverse event reports in a                               The adverse event reporting
                                                                             system enables CDRH to gather
systematic manner to detect and address safety
                                                                             information about potentially
              concerns about medical devices
                                                                             hazardous devices that could
                                   cause either injury or death. It is not clear, however, the extent to
                                   which CDRH uses this information to identify and address problems
                                   with medical devices.
                                   CDRH has not documented followup on adverse event reports
                                   MAUDE enables analysts to document when they send out additional
                                   information requests, place a telephone call, recommend an inspection,
                                   or take other actions during the review of an adverse event report. In
                                   practice, however, analysts document little of their reviews, which can
                                   make it difficult to trace the response to an individual event. For
                                   example, analysts reported that they often send requests for additional
                                   information to manufacturers that omitted pertinent information or
                                   specific details about the event, yet the analysts documented sending
                                   requests for only 5 percent of reports in 2007.

                                   Outcomes of adverse events can result in a variety of postmarket
                                   surveillance activities, such as public health notifications, warning
                                   letters, and education of manufacturers and user facilities. At this time,
                                   CDRH cannot link these responses to particular adverse events through
                                   documentation.
    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING    FOR   MEDICAL DEVICES
                                                                                                                  13
F    I N D I N G                    S


                                   CDRH also lacks an established system to document when adverse
                                   event reports result in onsite inspections. Although analysts refer
                                   adverse event reports to CDRH’s Office of Compliance to pursue
                                   regulatory action, the office does not document which reports resulted in
                                   inspections. Between 2003 and 2007, 7 of 130 onsite inspections
                                   (5 percent) specifically referenced adverse event numbers in their files.
                                   (See Table 8.) According to CDRH staff, a single adverse event report
                                   would not generally prompt an onsite inspection, and the Office of
                                   Compliance’s records do not indicate whether the adverse event report
                                   was the primary reason for the inspection.
                                   Table 8: For-Cause Inspections Related to Adverse Event
                                   Reports
                                                                                                                           Total '03
                                                                                      2003     2004   2005   2006   2007
                                                                                                                               - '07
                                    Suspect products or devices                           2     12     13     11      4          42
                                    Inspection sites                                      2     19     37     62     10         130


                                    CDRH establishment inspection reports
                                                                                          2     11     16     25      4          58
                                    not received
                                    Percentage of inspection sites                   100%      58%    43%    40%    40%        45%


                                    Adverse event report numbers identified
                                                                                          0      3      3      1      0             7
                                    in files
                                   Source: OIG analysis of Office of Compliance files, 2009.



                                   The limited documentation extends to inspection results. In the Office
                                   of Compliance’s files, 58 of 130 inspection files for 2003 to 2007
                                   (45 percent) did not contain the Establishment Inspection Reports. (See
                                   Table 8.) That report includes observations from the onsite inspection
                                   and the recommended classification of the inspection. CDRH was able
                                   to determine the outcomes of 37 of those 58 inspections by looking in a
                                   separate database; however, CDRH was unable to provide information
                                   about the outcomes of the remaining 21 inspections. CDRH’s files also
                                   indicated that regulatory action resulting from inspections associated
                                   with adverse events was limited to eight warning letters during that
                                   time.
                                   CDRH also does not document onsite inspections in the MAUDE
                                   database. Our analysis found that analysts recommended inspections
                                   for 39 reports. However, we were unable to match any of those adverse
                                   event report numbers with onsite inspection files from the Office of
                                   Compliance.


    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING       FOR   MEDICAL DEVICES
                                                                                                                               14
F    I N D I N G                    S


                                   The analysts we interviewed reported a need for information about the
                                   inspections or other corrective actions. Most analysts (12 of 16)
                                   reported that the lack of feedback from the Office of Compliance is a
                                   barrier for them to effectively do their jobs. They reported that the lack
                                   of information about the outcomes of their referrals makes it difficult to
                                   follow up with user facilities and manufacturers. It also affects how
                                   analysts might respond to additional adverse event reports from the
                                   same reporter.
                                   CDRH does not consistently read adverse event reports for the first time in a
                                   timely manner
                                   Of the adverse event reports in MAUDE that were read, analysts read
                                   fewer than one-third of them for the first time within 30 days and less
                                   than half within 60 days in every year from 2003 through 2007. (See
                                   Table 9.) The vast majority of the unread reports were malfunction
                                   reports, and MAUDE assigns only 10 percent of those reports to
                                   analysts for review. Failure to review reports in a timely manner may
                                   result in harm to other consumers if the manufacturer misclassified the
                                   adverse event (e.g., submitting a 30-day report rather than a 5-day
                                   report).

                                   CDRH has procedures for reviewing Code Blue and 5-day reports;
                                   however, we are unable to verify through CDRH’s documents whether it
                                   met the deadlines laid out in those procedures. The procedures call for
                                   a contractor to review and identify these reports. The contractor then
                                   notifies by email the appropriate personnel of all Code Blue or 5-day
                                   reports. The contractor initially enters these reports into MAUDE
                                   within 24 hours of receiving them, and they should be ready for the
                                   analysts to review within 96 hours of their receipt. Our review of
                                   MAUDE indicates that analysts first read only 6 percent of 5-day
                                   reports within 5 days of when the reports were entered in 2007. From
                                   2003 to 2006 analysts read less than 1 percent of these reports within
                                   5 days. For more detailed information on how soon analysts read 5-day
                                   reports, see Appendix D.




    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                         15
F    I N D I N G                    S


                                   Table 9: Timeliness of FDA Review of Adverse Event Reports
                                   2003–2007

                                   How Soon the Report Is Read                               2003    2004     2005     2006    2007

                                   All read reports in MAUDE                             48,093     52,294   61,617   86,566 122,469
                                      Within 0 to 5 days                                      0%       0%       0%       0%      0%
                                      Within 6 to 10 days                                     3%       3%       4%       3%      2%
                                      Within 11 to 30 days                                   29%      23%      30%      27%     21%
                                      Within 31 to 60 days                                   14%      12%       8%      12%     18%
                                      After 60 days                                          54%      61%      58%      58%     59%

                                   Source: OIG analysis of MAUDE adverse event data, 2009.
                                   Percentages do not add to 100 because of rounding.


                                   CDRH rarely acts when manufacturers and user facilities submit reports late
                                   Analysts told us that they generally forward concerns about timeliness
                                   to CDRH’s Division of Surveillance Systems, which manages reporting
                                   requirements, only when they notice pervasive problems. In interviews,
                                   many analysts told us that they handle concerns about timeliness
                                   informally by calling the manufacturer. CDRH senior officials told us
                                   that they rely on analysts to forward information on lack of timely
                                   reporting to that division. When it receives concerns, CDRH may
                                   schedule a conference with the manufacturer. If the problems persist,
                                   CDRH may forward the information to the appropriate district office to
                                   include in the manufacturer’s next onsite inspection.
                                   Inability to obtain complete and usable information in adverse event reports
                                   and in MAUDE hinders analysts’ review of reports
                                   Analysts reported that they are unable to make determinations about
                                   adverse events as quickly as they would like because of data quality and
                                   data management obstacles. Although manufacturers and user
                                   facilities generally submit the required event description on the report
                                   form, analysts told us that the description is often too vague to be of use
                                   in their evaluation. Almost all adverse event reports from 2003 to 2007
                                   included an event description, although in 2007 the number of reports
                                   missing descriptions increased. We did not evaluate the quality of the
                                   event descriptions. Missing or vague information can force analysts to
                                   spend time tracking down additional information, potentially adding
                                   weeks or months to the process. (See Appendix C for details.)
                                   Analysts also pointed to MAUDE as an impediment to making swift
                                   decisions. They told us that they are unable to easily conduct trend
                                   analysis of adverse events using MAUDE. Additionally, MAUDE does
                                   not connect with other CDRH databases, which would facilitate

    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING     FOR   MEDICAL DEVICES
                                                                                                                               16
F    I N D I N G                    S


                                   researching information such as the current device label. FDA is in the
                                   process of migrating to a new system, the FDA Adverse Event Reporting
                                   System, which may address some of the current MAUDE deficiencies.
                                   CDRH makes limited use of annual reports
                                   We identified at least 526 user facilities that should have submitted
                                   annual reports for 2006, but CDRH could provide only 220 annual
                                   reports for that year. We could not determine whether facilities did not
                                   submit reports or CDRH was unable to supply copies. Either reason
                                   suggests that these reports have limited utility for the agency.

                                   CDRH makes limited use of the annual reports that are submitted.
                                   Staff use them only to verify that corresponding death reports are in
                                   MAUDE. Our analysis confirmed that all 24 deaths from the
                                   2006 annual reports were in MAUDE. CDRH officials told us that they
                                   enter missing death reports from the user facilities into MAUDE but
                                   generally do not contact the user facilities. Except for a cover sheet
                                   with a count of reports, the event information in the annual report
                                   should be redundant to previously submitted information.




    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                       17
R    E C O                  M M E N D A T             I O N          S
Δ           R E C O M M E N D A T I O N S



                                   The adverse event reporting system provides both CDRH and
                                   manufacturers with a means to identify and monitor significant adverse
                                   events involving medical devices. Our evaluation found that although
                                   many manufacturers submitted 30-day adverse events on a timely
                                   basis, compliance rates for 5-day and user facility reports could be
                                   improved. This evaluation highlights CDRH’s vulnerabilities in its
                                   ability to identify and address safety concerns for medical devices.

                                   CDRH has taken steps to improve its data systems and how it
                                   communicates. FDA is in the process of replacing MAUDE with the
                                   FDA Adverse Event Reporting System, which will store adverse events
                                   for all five of FDA’s centers. CDRH also recently formed committees
                                   made up of representatives from across CDRH to discuss how to proceed
                                   with analyzing adverse events that require followup. The goals of these
                                   committees are to improve communication and share information.

                                   As the number of adverse event reports continues to increase, we
                                   recognize the challenges of processing a growing workload in a limited
                                   time while staffing levels remain the same. Given this challenge, it is
                                   essential that the review process be as transparent as possible and the
                                   information about specific adverse events be formally documented in a
                                   searchable and easily retrieved format.

                                   In light of our findings, CDRH should:
                                   Develop a protocol for reviewing adverse event reports that specifically
                                   addresses the following needs:
                                   Document followup on adverse events. CDRH should develop systems
                                   that reference the actions it takes on particular adverse event reports.
                                   Communication with manufacturers and user facilities, recommended
                                   actions, and onsite inspections should be clearly documented in records
                                   linked by a unique adverse event number.

                                   In addition, CDRH should consider developing a tracking system to
                                   follow the outcome of referrals that analysts send to the Office of
                                   Compliance. This could enhance the communication between the Office
                                   of Compliance and the analysts.

                                   Ensure and document that CDRH is meeting its guidelines for reviewing all
                                   5-day and Code Blue adverse event reports. Considerable time can pass
                                   from the date of the actual event until an analyst reads the report for
                                   the first time. Although CDRH cannot control when manufacturers
                                   submit reports, it can influence how quickly analysts first assess the

    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                        18
R    E C O                  M M E N D A T             I O N          S


                                   events and the actions the manufacturers are pursuing. Following its
                                   own procedures, which require that contractors initially enter all
                                   priority reports in MAUDE within 24 hours and analysts read them
                                   within 96 hours would ensure that CDRH knows whether
                                   manufacturers took the appropriate steps.

                                   Follow up with manufacturers that routinely submit reports late or with
                                   incomplete information. CDRH should identify and target manufacturers
                                   and user facilities with a history of noncompliance with adverse event
                                   submission requirements.

                                   Enhance outreach strategies to reduce underreporting by user facilities. To
                                   increase reporting among non-MedSun user facilities, CDRH should
                                   consider implementing strategies such as the type of additional training
                                   and outreach that the MedSun program has used to work effectively
                                   with its participants to increase reporting.
                                   Seek legislative authority to eliminate the requirement for user facilities to
                                   submit annual reports
                                   Other than a count of total adverse event reports, all of the information
                                   in the annual reports is redundant to the originally submitted reports.
                                   Eliminating this requirement (21 U.S.C. § 360i(b)(c)) would decrease the
                                   regulatory burden on user facilities, as well as the review burden on
                                   CDRH. Instead, CDRH should emphasize the importance of timely and
                                   appropriate reporting of all injuries and deaths by user facilities.


                                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                   RESPONSE
                                   FDA agreed with both of our recommendations. In response to our first
                                   recommendation, FDA said that CDRH will develop a clear review
                                   protocol that addresses the needs our report identified. To achieve this,
                                   FDA stated that its new FDA Adverse Event database will allow for
                                   more extensive documentation of followup on adverse events and permit
                                   FDA to more readily identify late and incomplete reports. FDA also
                                   stated that CDRH has developed a tracking system that facilitates
                                   referrals to the Office of Compliance and follows up on them. Finally,
                                   FDA will identify steps it will take to stimulate user facility reporting.

                                   Because FDA stated that a change in statutory authority would be
                                   needed to eliminate the requirement to submit annual reports, we
                                   revised our second recommendation accordingly.

                                   The complete text of FDA comments appears in Appendix E.

    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                            19
Δ             A P P E N D I X ~ A


                               Detailed Methodology

                               Scope
                               This study focused on the universe of reported adverse events in the
                               Manufacturer and User Facility Device Experience (MAUDE) and
                               alternative summary report (ASR) databases from 2003 to 2007. We
                               assessed compliance with reporting requirements for manufacturers
                               and user facilities, as well as the timeliness of the review by the Center
                               for Device and Radiological Health (CDRH). We also assessed CDRH’s
                               use of regulatory actions in instances in which analysts determined that
                               the manufacturers did not adequately address the adverse events.
                               Data Collection and Analysis
                               We used six data sources for this evaluation: (1) MAUDE, (2) ASR
                               database, (3) annual user facility reports, (4) CDRH files on regulatory
                               actions, (5) structured interviews with CDRH analysts, and
                               (6) interviews with CDRH senior officials.
                               MAUDE
                               We analyzed all adverse event reports from January 2003 through
                               December 2007 that CDRH stores in MAUDE. MAUDE contains
                               manufacturer, user facility, distributor, and voluntary reports. An
                               adverse event may have multiple follow-up reports in addition to an
                               initial report, and each report is referred to as a document. MAUDE
                               contained a total of 563,670 documents for 2003 through 2007. These
                               documents include 518,422 initial reports. The Food and Drug
                               Administration (FDA) sent the data in Access files, which we imported
                               and analyzed using SAS.

                               Our analysis included all initial reports in MAUDE. We analyzed them
                               to determine when they were read for the first time. We assessed the
                               review status of the reports to identify completed reviews, as well how
                               many reports were still unread. We examined 5-day manufacturer
                               reports to compare how soon analysts read these reports for the first
                               time versus other reports.

                               We used the initial adverse event reports to analyze the timeliness and
                               completeness of manufacturer and user facility reports. We did not
                               analyze initial voluntary or distributor reports other than to obtain a
                               total number. We used the report dates to determine timeliness based
                               on whether they were 5- or 30-day manufacturer reports or 10-day user
                               facility reports. We further divided our analysis of user facility reports

O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                     20
A    P P E N D                 I X ~ A




                               based on whether they were death or serious injury reports. We did not
                               analyze the timeliness of reports that did not fall under those
                               categories.

                               We analyzed how frequently data were missing from manufacturer and
                               user facility reports for information that analysts and CDRH staff told
                               us was critical to assessing report completeness. Finally, we identified
                               any documented review activity to determine how many additional
                               information request letters CDRH sent out and to provide more
                               information on follow-up actions recommended by analysts.

                               About 350 user facilities submit reports through the Medical Product
                               Safety Network (MedSun). Certain dates in MedSun, such as dates
                               when CDRH receives the report and when an analyst first reviews it,
                               are reset when reports are transferred to MAUDE. To obtain correct
                               user facility report dates, we requested all MedSun records from
                               January 2003 through December 2007. We identified which user
                               facility reports came through the MedSun system and performed our
                               analysis using the MedSun dates.
                               ASRs
                               We analyzed ASRs that manufacturers submitted to FDA each quarter
                               from April 2003 through March 2008 (to account for late reports)
                               covering January 2003 through December 2007. FDA sent us the data
                               in Access files, which we imported and analyzed using SAS. We
                               compared the dates when manufacturers submitted the reports to the
                               dates of the end of each quarter to evaluate the timeliness of
                               manufacturers that chose to submit ASRs. We also calculated the total
                               number of events submitted through ASRs each year. We performed
                               comparisons to determine when CDRH received and reviewed ASRs to
                               assess how long it takes CDRH to analyze ASR data.
                               Annual Reports
                               We requested all annual user facility reports for 2006. We reviewed the
                               report dates user facilities provided to determine the timeliness of the
                               reports. We identified all deaths in the annual reports and attempted to
                               find individual death reports in MAUDE. We also compared the
                               number of annual reports with the number of user facilities that
                               submitted adverse event reports to MAUDE in 2006 to calculate the
                               minimum number of missing annual reports.
                               CDRH Regulatory Information
                               We requested information from CDRH’s Office of Compliance about all
                               inspections that were associated with adverse event reports from

O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                   21
A    P P E N D                     I X ~ A


                                   January 2003 through December 2007. We also requested any
                                   information about regulatory actions, such as warning letters, recalls,
                                   product seizures, and injunctions that FDA had taken relating to
                                   adverse events. We reviewed 140 cases in which FDA had initiated
                                   regulatory action associated with adverse event reports.
                                   Structured interviews with CDRH analysts
                                   We conducted structured interviews with all 16 CDRH analysts who
                                   reviewed adverse event reports from December 2008 through
                                   January 2009. We conducted 10 of these interviews in person and 6 by
                                   phone. Six of these analysts work in the Patient Safety branch and
                                   review adverse event reports from MedSun facilities. The remaining
                                   10 analysts work in the Product Safety branch and review adverse event
                                   reports from all other sources.

                                   We asked analysts how they identify adverse event reports that
                                   required followup and develop a plan of action to manage them. We also
                                   asked them about the strengths of CDRH’s current procedures as well
                                   as opportunities for improvement.
                                   Interviews with CDRH senior officials
                                   We interviewed senior CDRH officials both by telephone and in person.
                                   The interviews covered topics ranging from MAUDE data to CDRH’s
                                   communication with different divisions within the center.
                                   Limitations
                                   We did not verify information in the adverse event reports from the user
                                   facilities or manufacturers. In addition, we limited our analysis to those
                                   reports that user facilities and manufacturers submitted to FDA. We
                                   did not attempt to calculate the magnitude of underreporting from
                                   either user facilities or manufacturers. Finally, we did not make
                                   determinations about the appropriateness of the analysts’ decisions or
                                   the actions that CDRH took pertaining to any adverse event report.




    O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                        22
ΔA      P
         A PP EP NE D N I DX I~ XA ~ B

                                Trends in Adverse Event Reports: 2003–2007


                                Table B-1: Medical Device Adverse Event Reports 2003–2007

                                Type of Adverse Event Report                      2003            2004        2005          2006          2007

                                Manufacturer reports                            65,217           70,718     90,157       109,676       141,065
                                   Percentage of total reports                     90%             90%         92%           93%           94%
                                User facility reports                            2,890            3,256      3,752          3,048         3,234
                                   Percentage of total reports                      4%              4%          4%            3%             2%
                                Other reports*                                   4,759            4,610      4,552          5,571         5,911
                                   Percentage of total reports                      7%              6%          4%            5%             4%

                                    Report total                                72,866           78,584   98,461** 118,295**           150,210


                                Source: Office of Inspector General analysis of Manufacturer and User Facility Device Experience database
                                adverse event data, 2009.
                                Percentages do not add to 100 because of rounding.
                                * Other reports include FDA voluntary and distributor reports.

                                ** Totals for 2005 and 2006 do not include one report and five reports, respectively, because information in the
                                reports needed for our analysis was missing.




 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING        FOR   MEDICAL DEVICES
                                                                                                                                            23
Δ             A P P E N D I X ~ C



                               Adverse Event Reports Missing Critical Information
                               For our analysis, we included the manufacturer name; device brand
                               name; device generic name; device product code; and, when necessary,
                               the device identification numbers. In situations when more than one
                               device may have been involved in the adverse event, we considered a
                               report as missing information if any associated device field was missing
                               information. We considered the device information missing when the
                               field was blank; specified “do not know,” “no information,” or
                               “unknown;” or contained what the Center for Device and Radiological
                               Health called invalid data. We did not consider information missing
                               when the field contained “not applicable.”
                               Table C-1: Adverse Event Reports Missing Critical Information


                                                                                  2003        2004          2005          2006         2007

                               Initial manufacturer reports                     65,127      70,718        90,162      109,676       141,065

                                  Percentage missing event description             3%           5%            2%           2%          11%

                                  Percentage missing manufacturer
                                                                                   2%           1%            1%           1%            1%
                                  name and device brand name
                                  Percentage missing device brand
                                                                                   2%           1%            1%           1%            1%
                                  name and generic name
                                  Percentage missing any device
                                                                                  30%          36%          37%           45%          50%
                                  identification number *

                               Initial user facility reports                     2,890        3,256        3,752         3,048        3,234

                                  Percentage missing event description             0%           0%            0%           0%            1%

                                 Percentage missing manufacturer
                                                                                  9%          8%            6%             5%            3%
                                 name and device brand name
                                 Percentage missing device brand
                                                                                  3%          3%            2%             2%            2%
                                 name and generic name
                                 Percentage missing any device
                                                                                 97%         97%           98%            98%          98%
                                 identification
                               Source:  Office ofnumber  * General analysis of MAUDE adverse event data, 2009.
                                                  Inspector

                               * Device identification numbers include the model number, lot number, serial number, catalog number, and any
                               other identification number.




O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING         FOR   MEDICAL DEVICES
                                                                                                                                       24
Δ       A P P E N D I X ~ D

                               Timeliness of FDA Review of Adverse Event Reports


                               Table D-1: Food and Drug Administration Review of 5-Day
                               Reports 2003–2007


                               How Soon the Report Is Read                              2003        2004        2005       2006        2007

                               Read 5-day reports                                         350          55          31        125            51
                                  Within 0 to 5 days                                      0%          0%         0%          0%            6%
                                  Within 6 to 10 days                                    23%        15%          6%          8%            6%
                                  Within 11 to 30 days                                   61%        69%         13%         70%            59%
                                  Within 31 to 60 days                                   16%          4%         6%          2%            10%
                                  After 60 days                                           1%        13%         74%         20%            20%

                               Source: Office of Inspector General analysis of Manufacturer and User Facility Device Experience database
                               adverse event data, 2009.
                               Percentages do not add to 100 because of rounding.




O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING      FOR   MEDICAL DEVICES
                                                                                                                                      25
                                                                                                                             I·

                                                                                                                             I




    A P PEN 0                    x         E


     Agency Comments




                   DEPARTMENT OF HEALTH & HUMAN SERVICES


                                                                                         Food and Drug Administration
                                                                                         Silver Spring, MD 20993




                  DATE:          September 16, 2009

                  TO:           Inspector General

                  FROM:         Principal Deputy Commissioner of Food and Drugs

                  SUBJECT:      FDA's General Comments to OIG's draft report titled, Adverse Event
                                Reporting/or Medical Devices (OEI-OI-08-001O)

                  FDA is providing the attached general comments to the Office ofInspector General's
                  draft report titled: Adverse Event Reporting/or Medical Devices (OE/-OI-08-0010).

                  FDA appreciates the opportunity to review and comment onthis draft report before it is
                  published.


                                                                /S/
                                                      Joshua M~arfstein, M.D.

                                                      Principal eputy CommIssIOner of Food and Drugs



                  Attachment




OEI·01·08·00110     ADVERSE EVENT REPORTING FOR MEDICAL DEVICES
                                                                                                                        26
A P P E N D                     I X     ~      E




 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                  27
A P P E N D                     I X     ~      E




 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                  28
A P P E N D                     I X     E
Δ        A C K N O W L E D G E M E N T S

                                This report was prepared under the direction of Joyce Greenleaf,
                                Regional Inspector General for Evaluation and Inspections in the
                                Boston regional office, and Russell Hereford, Deputy Regional Inspector
                                General.

                                Danielle Fletcher served as the team leader for this study. Other
                                principal Office of Evaluation and Inspections staff from the Boston
                                regional office who contributed to the report include Rose Lichtenstein;
                                central office staff who contributed include Talisha Searcy.




 O E I - 0 1 - 0 8 - 0 0 11 0   ADVERSE EVENT REPORTING   FOR   MEDICAL DEVICES
                                                                                                     29
